No. _____
IN THE
SUPREME COURT OF THE UNITED STATES
KERRY KOTLER,
Petitioner,
v.
L. JUBERT, DEPUTY SUPERINTENDENT OF SECURITY, W. DANN,
CORRECTION SERGEANT, DARWIN DAILY, CORRECTIONS OFFICER, DAVID
CHARLAND, CORRECTIONS OFFICER,
Respondents.
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Second Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Rule 39, Petitioner Kerry Kotler seeks leave to file the
accompanying Petition for a Writ of Certiorari to the United States Court of Appeals
for the Second Circuit without prepayment of costs and to proceed in forma pauperis.
Petitioner sought, and was granted, leave to proceed in forma pauperis in the Court
below and undersigned counsel was appointed to represent Petitioner pursuant to the
Second Circuit’s Pro Bono Counsel Plan, adopted to assist that court in processing
pro se civil appeals more equitably and efficiently. Copies of the orders are attached.
Dated: August 23, 2021
/s/ Tadhg Dooley
Tadhg Dooley
Counsel of Record
WIGGIN AND DANA LLP

One Century Tower
New Haven, CT 06508-1832
(203) 498-4400
tdooley@wiggin.com
Counsel for Petitioner

2

Case 16-4191, Document Document
43, 06/27/2017,
2067071,
Page1Page
of 4 1 of 4
Case 9:06-cv-01308-FJS-DEP
280 Filed
06/26/17

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
_________________________________________________
KERRY KOTLER,
Plaintiff,
v.

9:06-CV-1308
(FJS/DEP)

L. JUBERT, Deputy Superintendent of Security;
W. DANN, Correction Sergeant; DARWIN DAILY,
Corrections Officer; and DAVID CHARLAND,
Corrections Officer,
Defendant.
_________________________________________________
APPEARANCES

OF COUNSEL

KERRY KOTLER
97-A-6645
Franklin Correctional Facility
P.O. Box 10
Malone, New York 12953
Plaintiff pro se
OFFICE OF THE NEW YORK
STATE ATTORNEY GENERAL
The Capitol
Albany, New York 12224
Attorneys for Defendants

GREGORY J. RODRIGUEZ, AAG
WILLIAM A. SCOTT, AAG

SCULLIN, Senior Judge
ORDER
At the conclusion of the trial of this matter, the jury returned a verdict in favor of
Defendants. See Dkt. No. 262, Judgment. Plaintiff filed a Notice of Appeal regarding that
judgment, see Dkt. No. 264, and also filed a motion for judgment as a matter of law or, in the
alternative, for a new trial, see Dkt. No. 266. In a Memorandum-Decision and Order dated May 18,

Case 16-4191, Document Document
43, 06/27/2017,
2067071,
Page2Page
of 4 2 of 4
Case 9:06-cv-01308-FJS-DEP
280 Filed
06/26/17

2017, the Court denied that motion. See Dkt. No. 274. Plaintiff filed a Notice of Appeal regarding
the Court's decision. See Dkt. No. 276. Pending before the Court is Plaintiff's motion to proceed
with his appeal in forma pauperis. See Dkt. No. 279.
Pursuant to Rule 24 of the Federal Rules of Appellate Procedure,
a party to a district-court action who desires to appeal in forma
pauperis must file a motion in the district court. The party must attach
an affidavit that:
(A) shows in the detail prescribed by Form 4 of the
Appendix of Forms the party's inability to pay or to
give security for fees and costs;
(B) claims an entitlement to redress; and
(C) states the issues that the party intends to present on
appeal.
Fed. R. App. P. 24(a)(1).
In this District, if the appellant is a prisoner, who seeks to appeal in forma pauperis, he must
also file a certification from an authorized official at his current institution of confinement,
certifying the balance in his inmate account and the average balance in that account for the past six
months.
In support of his motion, Plaintiff submitted an "Affidavit Accompanying Motion for
Permission to Appeal In Forma Pauperis," attesting to his inability to pay the fees and costs
associated with his appeal and a statement of the issues he intends to present on appeal. See Dkt.
No. 279. He also submitted a completed "Prisoner Authorization Form,"1 dated June 19, 2017, in
which he "request[ed] and authorize[d] the institution holding [him] in custody to send to the Clerk

1

This form is a Second Circuit Form.
-2-

Case 16-4191, Document Document
43, 06/27/2017,
2067071,
Page3Page
of 4 3 of 4
Case 9:06-cv-01308-FJS-DEP
280 Filed
06/26/17

of the United States Court of Appeals for the Second Circuit certified copies of [his] prison trust
fund account statements or the institutional equivalent for the past six months." See Dkt. No. 279-1.
He further "request[ed] and authorize[d] the institution holding [him] in custody to calculate the
amounts specified by the statutes, to deduct those amounts from [his] prison trust fund account, or
institutional equivalent, and to disburse those amounts to the Untied States District Court for the
Northern District of New York." See id.
Although the Court has not received the required certification regarding Plaintiff's inmate
account in this case, Plaintiff recently filed a new case in this District, Kotler v. Bosco, 9:17-CV-394
(GTS/DEP), in which he filed an "Application to Proceed Without Full Prepayment of Fees;
Affidavit and Authorization Form." See Bosco, 9:17-CV-394, Dkt. No. 5. That document included
a certification from an authorized officer at his current institution of confinement, dated April 18,
2017, in which that officer certified as follows:
I certify that the applicant named herein has the sum of $7.19 on
account to his . . . credit at . . . Franklin Correctional Facility.
I further certify that the applicant has the following securities to his . . . credit: 0
I further certify that during the past six(6) months the applicant's
average balance was $22.57.
See id. at 2.
Based on its review of the affidavit Plaintiff filed in support of his motion to proceed with
his appeal in this case in forma pauperis, as well as the above-cited certification in Kotler v. Bosco,
the Court finds that Plaintiff has complied with the requirements of Rule 24(a)(1).
Accordingly, the Court hereby
ORDERS that Plaintiff's motion to proceed with his appeal in forma pauperis, see Dkt. No.
-3-

Case 16-4191, Document Document
43, 06/27/2017,
2067071,
Page4Page
of 4 4 of 4
Case 9:06-cv-01308-FJS-DEP
280 Filed
06/26/17

279, is GRANTED; and the Court further
ORDERS that the Clerk of the Court shall serve a copy of this Order on the parties in
accordance with the Local Rules.

IT IS SO ORDERED.

Dated: June 26, 2017
Syracuse, New York

-4-

Case 16-4191, Document 177, 08/14/2019, 2631588, Page1 of 1

United States Court of Appeals
FOR THE

SECOND CIRCUIT
__________________

At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City
of New York, on the 14th day of August, two thousand nineteen.
Kerry Kotler,
Plaintiff-Appellant,
v.

16-4191(L),
17-1755(Con)

L. Jubert, Deputy Superintendent of Security, et al.,
Defendants-Appellees,
John Donelli, Superintendent, Bare Hill
Correctional Facility, et al.,
Defendants.

IT IS HEREBY ORDERED that
Tadhg Dooley
Wiggin and Dana LLP
One Century Tower
P.O. Box 1832
New Haven, CT 06508-1832
(203) 498-4549
be appointed as counsel for the Appellant. Counsel is directed to review Local Rule 31.2
regarding procedures for setting the filing dates for the submission of briefs.

For the Court:
Catherine O=Hagan Wolfe, Clerk of Court

